               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




        Metro Post Same Day Delivery
        Pilot – San Francisco District

         Management Advisory Report




                                              February 5, 2014

Report Number DR-MA-14-002
                                                                       February 5, 2014

                                              Metro Post Same Day Delivery Pilot –
                                                           San Francisco District

                                                        Report Number DR-MA-14-002



BACKGROUND:
In December 2012, the Postal                required daily minimum target of
Regulatory Commission approved pilot        200 packages per delivery day. Only
testing of the U.S. Postal Service's        95 packages were sent by the six
Metro Post Same Day Delivery concept        participating retailers over a 5-month
in the San Francisco District's 941 ZIP     period. Implementation in the San
Code areas. This service enables            Francisco District was based on the
customers to order products online by       expectation of agreements with several
2 p.m. from partnering retailers and        large retailers. However, only one large
receive their shipments the same day        retailer agreed to participate in the pilot,
between 4 p.m. and 8 p.m. Carriers use      and later withdrew prior to
smartphones that provide audio and          implementation due other operational
visual package pickup and delivery          priorities. The Postal Service was left
routing directions that are integrated      with small local retailers that could not
with the Postal Service's Dynamic           produce the target daily package
Routing System Google Maps©                 volume. As a result, the Postal Service
application. Retailers and customers        earned $760 and spent $10,288, with a
use the Postal Service's Track and          net loss of $9,528 on the pilot.
Confirm application to track their
packages.                                   WHAT THE OIG RECOMMENDED:
                                            Postal Service Executive Vice
The Postal Service began the Metro          President, Chief Marketing and Sales
Post Same Day Delivery pilot to gain a      Office took actions during the course of
competitive edge in parcel delivery by      our review and, therefore, this report
offering customers a convenient and         does not contain any recommendations.
flexible delivery alternative. The Postal   Specifically, officials agreed to suspend
Service planned to gather sufficient data   the pilot in the San Francisco District
during the pilot to determine whether to    beginning March 1, 2014 which will
continue this delivery service.             allow time to notify customers of the
                                            change. Officials further indicated they
Our objective was to assess                 plan to re-initiate the program in this
implementation of the Metro Post Same       location when they can secure large
Day Delivery pilot.                         retailers’ participation. They have
                                            initiated the Metro Post Same Day
WHAT THE OIG FOUND:
                                            Delivery pilot in the New York District
The Postal Service did not properly
                                            where they have large participating
implement the pilot. They did not have
                                            retailers.
sufficient participation from the six
                                            Link to review the entire report.
selected retailers to achieve the
February 5, 2014


MEMORANDUM FOR:             NAGISA MANABE
                            EXECUTIVE VICE PRESIDENT, CHIEF MARKETING AND
                             SALES OFFICER

                           EDWARD F. PHELAN, JR.
                           VICE PRESIDENT, DELIVERY AND POST OFFICE
                            OPERATIONS


                                E-Signed by Robert Batta
                              VERIFY authenticity with e-Sign




FROM:                       Robert J. Batta
                            Deputy Assistant Inspector General
                             for Mission Operations

SUBJECT:                   Management Advisory Report – Metro Post Same Day
                           Delivery Pilot – San Francisco District
                           (Report Number DR-MA-14-002)

This report presents the results of our review of the U.S. Postal Service Metro Post
Same Day Delivery Pilot – San Francisco District (Project Number 13XG018DR001).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita F. Oliver, director, Delivery
and Post Office Operations, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Metro Post Same Day Delivery Pilot –                                                                              DR-MA-14-002
 San Francisco District



                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Metro Post Same Day Delivery Pilot – San Francisco District......................................... 2

Pilot Execution ................................................................................................................ 2

Recommendations .......................................................................................................... 3

Management’s Comments .............................................................................................. 3

Appendix A: Additional Information ................................................................................. 4

   Background ................................................................................................................. 4

   Objective, Scope, and Methodology ............................................................................ 5

   Prior Audit Coverage ................................................................................................... 6
Metro Post Same Day Delivery Pilot –                                                                  DR-MA-14-002
 San Francisco District



Introduction

This report presents the results of our self-initiated review of the U.S. Postal Service’s
Metro Post Same Day Delivery Pilot in the San Francisco District. Our objective was to
assess implementation of the pilot (Project Number 13XG018DR001). See Appendix A
for additional information about this review.

In response to increasing parcel volume and the changing needs of customers, 1 the
Postal Regulatory Commission (PRC) approved the pilot in the San Francisco District in
November 2012. The PRC based its approval on the city's population density and the
number of possible delivery areas available. 2 Under this concept, a customer could
make an online purchase from a Metro Post retailer, have it processed 3 by 2 p.m., and
receive his or her shipment the same day between 4 p.m. and 8 p.m. in the San
Francisco, CA, 941 ZIP Code areas. The Postal Service determines the required
staffing and optimal routes for pickups and deliveries 4 from the retailers for same day
delivery to the customers. It planned to gather sufficient data during the 1-year pilot to
support its decision to request an extension for an additional year, establish the service
as a permanent product on a quicker timeline, or terminate the test early.

Conclusion

The Postal Service did not properly implement the pilot. They did not have sufficient
participation from the six selected retailers to achieve the required daily minimum target
of 200 packages per delivery day. Only 95 packages were sent by the six participating
retailers over a 5-month period. Implementation of the pilot in the San Francisco District
was based on the expectation of agreements with several large retailers. However, only
one large retailer agreed to participate in the pilot, and later withdrew prior to
implementation due other operational priorities. The Postal Service was left with small
local retailers that could not produce the target daily package volume. The Postal
Service earned $760 and incurred costs of $10,288, with a net loss of $9,528.

Officials initiated suspending the pilot in the San Francisco District by March 1, 2014,
which will allow time to notify customers of the change. Officials further indicated they
plan to re-initiate the program in the San Francisco District when they can secure large
retailers’ participation. Officials have initiated the pilot in the New York District 5 where
large retailers are participating. Because the pilot will be suspended, we are not making
any recommendations.


1
  The postmaster general stated in his February 13, 2013, testimony before the Senate’s Committee on Homeland
Security and Governmental Affairs that package sales increased 14 percent over the past 2 years.
2
  PRC order approving Metro Post market test dated November 14, 2012, Order Number 1539/Docket Number
MT2013-1.
3
  Processing includes picking up, packing, and labeling the product and transmitting the manifest data to My Post.
4
  The Dynamic Routing Device will create the optimal pickup and delivery sequence for the day’s deliveries.
5
  Management requested we perform a review of the Metro Post pilot in the New York District.
                                                           1
Metro Post Same Day Delivery Pilot –                                                            DR-MA-14-002
 San Francisco District


Metro Post Same Day Delivery Pilot – San Francisco District

To gain a competitive edge in parcel delivery, the Postal Service began pilot testing
Metro Post Same Day Delivery in December 2012 in the San Francisco District's 941
ZIP Code areas. The intent of the pilot was to provide customers with a convenient and
flexible delivery alternative.

The pilot was designed to:

     Increase the Postal Service's parcel readiness for future online retail growth. 6

     Expand available parcel delivery and shipment options for customers by giving them
      an easy, convenient, and secure package delivery alternative. It could also reduce
      customer concerns related to missed deliveries, address mix-ups, stolen packages,
      or weather-damaged goods.

     Provide the Postal Service with a marketing edge, using similar strategies
      implemented by competitors and international entities that offer same day delivery
      service to help increase revenue.

Pilot Execution

Although the pilot could provide some revenue opportunities for the Postal Service, we
could not evaluate these opportunities because the pilot was not properly implemented.
The participating retailers did not ship the required daily minimum target of 200
packages per delivery day.

Retailers’ Participation The Postal Service did not have sufficient participation from the
six selected retailers. They only sent 95 packages over a 5-month period (see Table1).
PRC approval for the pilot test established a goal of 200 packages per delivery day.




6
    Readiness for Package Growth - Delivery Operations, (Report Number DR-MA-14-001, dated December 11, 2013).

                                                        2
Metro Post Same Day Delivery Pilot –                                                              DR-MA-14-002
 San Francisco District



                        Table 1. Retailers' Parcel Volume as of June 12, 2013

                         Retailer Name                        Actual Parcel Volume
                                                                                             80
                                                                                              1
                                                                                              1
                                                                                              4
                                                                                              8
                                                                                              1
                   Total                                                                     95
                  Source: OIG analysis of Postal Service Metro Post data.

Some retailers were not participating because the pilot initiative did not meet their needs
in terms of online postage and signature confirmation. Regarding online postage,
                   , which specializes in purchasing and reselling older, used arcade or
gaming software, indicated Metro Post Same Day Delivery did not meet its need to
purchase exact postage. Metro Post’s use of Endicia 7 for same day delivery postage
requires users to purchase postage in dollar increments versus the exact postage
amount. Regarding signature confirmation,                            , which sells specialty
gloves, indicated it would use the Metro Post Same Day Delivery service more often if
signature verification were available.

The pilot’s implementation in the San Francisco District was based on the expectation of
agreements with several large retailers. However, only one large retailer agreed to
participate in the pilot, and later withdrew prior to implementation due other operational
priorities. The Postal Service was left with small local retailers that could not produce
the target daily package volume. The Postal Service earned $760 and spent $10,288,
with a net loss of $9,528.

Officials initiatied suspending the pilot in the San Francisco District by March 1, 2014,
which will allow time to notify customers of the change. Officials further indicated that
plan to re-initiate the program in the San Francisco District when they can secure large
retailers’ participation. Officials have initiated the Metro Post Same Day Delivery pilot in
the New York District 8 where they have large retailers participating.

Recommendations

The corrective actions already in progress should correct the issue discussed, therefore,
we made no recommendations in this report.

Management’s Comments

Management reviewed a draft of this report and had no comments or concerns.

7
    An online application that allows retailers to prepay postage.
8
    Management requested we perform a review of the Metro Post Same Day Delivery pilot in New York.

                                                          3
Metro Post Same Day Delivery Pilot –                                                                          DR-MA-14-002
 San Francisco District




                                     Appendix A: Additional Information

Background

With Metro Post Same Day Delivery, a customer can make an online purchase from a
Metro Post retailer, have it processed by 2 p.m., and receive his or her shipment the
same day between 4 p.m. and 8 p.m. in the San Francisco, CA, 941 ZIP Code areas.
Metro Post carriers and vehicles are co-located within the San Francisco Postal
Service's processing and distribution center and the San Francisco District office. 9 The
pilot process is summarized as follows:

      Customer makes an online purchase from a Metro Post retailer, including selecting
       delivery time and shipment cost from the delivery options on the retailer’s website.
       The customer pays by credit card online and includes shipping instructions to the
       retailer.

      Upon receipt of the purchase request and payment, the retailer finalizes the order
       with the customer, who pays a flat rate of $8 to the Postal Service for Metro Post
       shipping using Endicia or another authorized payment application. The retailer
       provides the Postal Service with the pickup and delivery location via My Post. 10

      The Postal Service determines staffing based on the day's package volume and
       optimizes routes for pickups and deliveries. The Postal Service provides the retailer
       with the tracking number and expected delivery time, which the retailer
       communicates to the customer through its order confirmation process. Each carrier
       loads up to a maximum of 25 packages in modified minivans between the hours of
       2 p.m. and 4 p.m. (see Figures 1 and 2).

        Figure 1. Minivan Outside View                                  Figure 2. Minivan Inside View




           Source: OIG photographs taken February 11, 2013.

      Next, the carrier makes deliveries between 4 p.m. and 8 p.m. For increased safety
       during evening delivery hours when darkness could pose a hazard, carriers use the
       side door of the minivan for loading and off-loading parcels and wear reflective vests
       for greater visibility.

9
    The PRC approved the initial pilot for the San Francisco District only, with plans for future locations.
10
     The application that local post offices rely on to pull or hold mail requests, carrier pickups, and service issues daily.

                                                               4
Metro Post Same Day Delivery Pilot –                                                   DR-MA-14-002
 San Francisco District



      The carrier uses the smartphone for directions and real-time tracking 11 (see
       Figure 3). The smartphone provides audio and visual package pickup and delivery
       routing directions, which are integrated with the Postal Service's Dynamic Routing
       System Google Maps© application. The carrier uses the smartphone to scan each
       parcel at pickup and delivery to provide real-time tracking information to the Metro
       Post Volume Summary dashboard. The dashboard includes the merchant's name,
       pickup and delivery dates, mileage, and the number of parcels delivered for each
       shipment and carrier location. Retailers and customers can also use the Postal
       Service's Track and Confirm application to track a package.

                                        Figure 3. Smartphone




                               Source: OIG photograph taken February 11, 2013.

Objective, Scope, and Methodology

Our objective was to assess implementation of the Metro Post Same Day Delivery pilot.

To accomplish our objective we:

      Reviewed Postal Service documentation, including applicable policies and
       procedures and prior reports related to the pilot.

      Analyzed available performance data for fiscal years 2012 and 2013 for the San
       Francisco pilot and actual implementation costs to date.

      Interviewed Postal Service Headquarters and San Francisco District officials to
       discuss the pilot and assess the success of the pilot in the San Francisco 941 ZIP
       Code areas. We also observed pilot operations from February 11-14, 2013.

      Performed test deliveries with retailers participating in the pilot and interviewed their
       representatives to determine usage and identify areas of concern.

We conducted this review from March 2013 through February 2014 in accordance with
the Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on January 15 and 23, 2014, and included their comments where
appropriate.
11
     Delivery Data Transmission, (Report Number DR-MA-13-003, dated August 6, 2013).

                                                        5
Metro Post Same Day Delivery Pilot –                                            DR-MA-14-002
 San Francisco District



We relied on Time and Accounting Collection System data provided by Postal Service
officials. We determined that the data were sufficiently reliable for the purposes of this
report.

Prior Audit Coverage

The OIG did not identify any prior audit reports related to our objective.




                                             6
